CERTIFICATE OF COMPLIANCE
Case No. 20-1599
Caption: John Doe 7, et al. v. Chiquita Brands
International, Inc.
As required by Supreme Court Rule 33. l(h),
I certify that the document contains 3,744 words,
excluding the parts of the document that are
exempted by Supreme Court Rule 33. l(d).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on June 2, 2021.

~t

Nadia Oswald-Hamid
Record Press, Inc.

Sworn to before me on
June 2, 2021
JASMINE WILLIAMS
Notary Public, State of New York
No. 01 W16397949
'fied in Qu
aunty
Com
Expires

